PROOF OF SERVICE
I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify that
on the 10th day of September, 2021, three (3) copies of the Brief Amici Curiae of
Concerned Women for America, et al., in support of the Petitioners in No. 20-1088;
David Carson, as Parent and Next Friend of O. C., et al., Petitioners v. A. Pender
Makin; were served by first-class mail, postage pre-paid, on the following:
Michael Eugene Bindas
Counsel of Record for Petitioners
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
Sarah Ann Forster
Counsel of Record for Respondent
Office of the Attorney General
6 State House Station
Augusta, ME 04333

/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
CLAYBROOK LLC
700 Sixth St., N.W., Ste. 430
Washington, D.C. 20001
tel. (202) 250-3833
Rick@claybrooklaw.com

